<html>
<title> - COMMITTEE RESOLUTION AMENDING THE COMMITTEE'S REGULATIONS AND FOR OTHER PURPOSES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                     COMMITTEE RESOLUTION AMENDING
                      THE COMMITTEE'S REGULATIONS
                         AND FOR OTHER PURPOSES

=======================================================================

                            BUSINESS MEETING

                               BEFORE THE
                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 21, 2015

                               __________

      Printed for the use of the Committee on House Administration
      
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html
   
                               ____________
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
97-426                         WASHINGTON : 2015                        
                 
________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800,or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="086f7867486b7d7b7c606d6478266b676526">[email&#160;protected]</a>  
                 
                   
                   
                   
                   COMMITTEE ON HOUSE ADMINISTRATION

                 CANDICE S. MILLER, Michigan, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania
RICHARD NUGENT, Florida                Ranking Minority Member
RODNEY DAVIS, Illinois               ZOE LOFGREN, California
BARBARA COMSTOCK, Virginia           JUAN VARGAS, California
MARK WALKER, North Carolina

                           Professional Staff

                       Sean Moran, Staff Director
                  Jamie Fleet, Minority Staff Director

 
COMMITTEE RESOLUTION AMENDING THE COMMITTEE'S REGULATIONS AND FOR OTHER 
                                PURPOSES

                              ----------                              


                      WEDNESDAY, OCTOBER 21, 2015

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:17 a.m., in Room 
1310, Rayburn House Office Building, Hon. Candice S. Miller 
[chairman of the Committee] presiding.
    Present: Representatives Miller, Harper, Nugent, Davis, 
Comstock, Walker, Brady, Lofgren, and Vargas.
    Staff Present: Sean Moran, Staff Director; John Clocker, 
Deputy Staff Director; Bob Sensenbrenner, Deputy General 
Counsel; John L. Dickhaus, Legislative Clerk; Erin McCracken, 
Communications Director; Katie Patru, Deputy Staff Director: 
Outreach and Communications; Jamie Fleet, Minority Staff 
Director; Matt Pinkus, Minority Senior Policy Advisor; Khalil 
Abboud, Minority Deputy Staff Director/Director of Legislative 
Operations; Mike Harrison, Minority Chief Counsel; and Eddie 
Flaherty, Minority Chief Clerk.
    The Chairman. I now call to order the Committee on House 
Administration for today's Committee hearing. We do have a 
quorum present, so we can proceed. I would remind members that 
the record will remain open for 5 legislative days so that 
members can submit any materials that they wish to be included 
into the record.
    Today, our Committee is going to consider really one 
important item. The Committee resolution before us will be 
amending The Member's Congressional Handbook to provide more 
clarity on current regulations governing the use of official 
resources, as well as adding new review requirements.
    This Committee resolution will also be directing the Chief 
Administrative Officer, the CAO, to submit to the Committee a 
proposal on how we would improve the transparency of House 
expenditures in the quarterly statements of disbursements. It 
also directs the CAO to review its own internal finance 
procedures and to provide the Committee with a complete report 
on how their finance department complies with the Committee's 
voucher documentation standards.
    This Committee, of course, is charged with overseeing the 
day-to-day operations of the House, and it is a responsibility 
that I know each of us take very seriously. Members of this 
institution, each one of us are elected by our constituents and 
taxpayers; and each of us are accountable to them. We are all 
sent here to Washington to represent their views and advocate 
on their behalf, and that requires our actions to reflect their 
interests. All of our actions, not just how we vote on the 
floor of the House, but certainly how we spend our official 
representational budgets, or as it is commonly called here on 
the Hill, our MRAs. Members and their staffs have to be held 
accountable to their constituencies; and our Committee, part of 
our responsibility certainly is to help provide for that 
accountability.
    So in conjunction with the House Committee on Ethics, House 
leadership, and other entities, like the CAO, we work to ensure 
that tax dollars are spent in the most efficient, accountable, 
and transparent way, and we accomplish this by establishing and 
regularly reviewing and updating the regulations governing how 
official resources might be used. We also try to educate House 
officers about these regulations and working with the CAO to 
help ensure compliance of our regulations, and to improve 
public transparency of all of these expenditures.
    Of course, like any other entity, we are not immune from 
individuals who break the rules. We certainly can't force 
individuals to always do the right thing, but we can make it 
easier to hold them accountable if they don't. As everyone here 
is aware, there were some recent questions surrounding a 
particular Member's use of official resources. Specifically, 
questions related to the use of official resources for car 
mileage reimbursement, furnishings and decorations in the 
Washington, D.C., office, as well as the use of charter 
flights.
    I want to be very, very clear here: The resolution that is 
being considered today is not suggestive--it is not 
suggestive--of this particular Member's culpability. This was 
not an investigation into a particular Member's use of official 
resources. This is not an investigative body. The resolution 
that we are considering today is a result of this Committee's 
internal review of our own regulations and assessments on ways 
that we can just improve them.
    However, it was because of this incident that a lot of 
questions were raised. It initiated our complete, bipartisan--
and let me stress that--bipartisan review of current 
regulations, as well as House processes and enforcement 
practices for officials' expenditures.
    In response, we established an official review group that 
was led by Committee members Rodney Davis, who did an 
outstanding job, and I certainly want to thank him, and his 
counterpart, Zoe Lofgren, the gentlelady from California. Both 
of them were former congressional staffers, an interesting 
thing. Who knew better, really, on how our processes worked? 
They had so much experience in managing office operations and 
expenditures.
    So, again, I want to thank them sincerely. I will tell you 
also, this resolution that we are looking at today is 
essentially their work product. Everybody on this Committee has 
helped, but it was really them. They have been the lead. They 
conducted a very thorough review, starting with a complete 
examination of the regulations and The Member's Congressional 
Handbook. Specifically, they examined ways they could clarify 
or tighten regulations and reduce any gray areas.
    The review group met with House stakeholders, they met with 
Members, they met with chiefs of staff, individual Member 
office financial administrators, employees within the Office of 
Finance, and various other entities, focused, again, on House 
transparency. After completing their review and taking into 
consideration the feedback that they collected, they identified 
ways that we can strengthen as a Committee and clarify our 
regulations and improve the transparency of House expenditures.
    Again, the resolution being considered by the Committee 
today reflects their recommendations and directs additional 
evaluation of House processes that might warrant future changes 
as well. Always look to the future.
    The resolution, effective immediately if the Committee 
adopts it today, will modify The Member's Congressional 
Handbook to clarify what type of car mileage is qualified for 
reimbursement, specifically limiting it to a depreciable asset 
that you or your family members personally own or personally 
lease so that there is no confusion. It also adds new 
thresholds for certain charter flights that will now require 
prior approval by this Committee.
    The resolution also clarifies the regulations for office 
furniture. Currently, the Member's handbook states that 
furniture is not reimbursable for the Washington, D.C., 
congressional office, and this remains the same. The resolution 
would require Committee approval for a furniture item in the 
district office if it costs more than $5,000 per item. And for 
decorating expenses, only a purchase of nominal value, such as 
frames or bookends or what have you, has ever been allowed 
within our current Member's handbook. This remains the same.
    In the limited case of fixtures, a Member's office must 
obtain approval from the Committee for an item exceeding 
$5,000. However, again, all decorations should be of nominal 
value.
    In addition to modifying The Member's Congressional 
Handbook, the resolution also involves the CAO, who is our 
partner in transparency and helping to ensure that our 
regulations are followed and that each taxpayer dollar is 
properly spent. This resolution directs the CAO to create a 
plan to increase the transparency of office expenditures. It 
also directs the CAO to conduct a complete review of its 
finance procedures and to report back to our Committee on how 
it complies with the stringent documentation standards 
established by our Committee.
    I always have said to my staff, I tell them all the time, 
that the largest room is the room for improvement. That means 
that the reforms that we adopt today will likely not be the 
last that this Committee ever adopts and that we will continue 
to review our regulations, as we always do.
    With that, I would now like to recognize my colleague and 
the Committee's ranking member, Mr. Brady, the gentleman from 
Pennsylvania, for the purpose of his opening statement. I would 
just say again that this review has been extremely bipartisan. 
The ranking member and I have had a number of conversations 
about it. And I think we have worked well together, as have our 
review Committee.
    Mr. Brady.
    Mr. Brady. Thank you, Madam Chairman. Thank you for holding 
this meeting. I have a longer statement for the record, but 
want to underline the important work this Committee does in 
making sure public funds and other official resources are used 
properly. I would also like to commend Ms. Lofgren and Mr. 
Davis for taking the lead on behalf of the Committee on this 
project.
    I very much appreciate the work of the bipartisan staff 
that has happened here. Their work has produced some overdue 
changes to our regulations and will give the taxpayers greater 
transparency on how our tax dollars are spent.
    Madam Chairman, I would like to submit my full statement 
for the record, and thank you again for having this meeting.
    [The statement of Mr. Brady follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairman. I thank the gentleman very much.
    I now would like to recognize Congressman Rodney Davis. 
Again, I want to thank him so much for all of his work. There 
has been a number of months and hours and really a dedicated 
commitment to looking into this entire process. This work 
product, as I say, is really essentially Congressman Davis' and 
Congresswoman Lofgren's as well.
    The gentleman from Illinois.
    Mr. Davis. Thank you, Chairman Miller.
    As Members of Congress, it is our duty to be good stewards 
with the tax dollars that we are entrusted with. And this 
internal process, I believe, was to make sure we uphold that 
duty.
    I would like to again thank Chairman Miller, Ranking Member 
Brady for allowing us to lead this review process. And I want 
to send a special thanks to my colleague, Ms. Lofgren, who was 
my partner in this review process. We would not have gotten to 
this point without everybody's bipartisan cooperation, and my 
thanks go to each of you.
    As a financial administrator for a Member of Congress for 
16 years, this is an issue that is personal to me too. These 
are issues that I faced when I submitted the paperwork that 
goes throughout the process that we are reviewing today. Ms. 
Lofgren and I went through a comprehensive review that engaged 
Members, staff, Member financial administrators, Member office 
financial administrators, management of the Office of the CAO, 
various transparency groups, and also the Ethics Committee.
    While our review found no broad patterns of abuse or fraud, 
we did find areas that we can improve on, many of those 
mentioned in Chairman Miller's opening statements. 
Specifically, we need to create more transparency. We need to 
make sure that we improve the way our expenses are disclosed on 
the quarterly statements of disbursement, updating the 
regulations and the guidelines of the Member handbook, and 
providing further clarity and education, jointly with the 
Ethics Committee, to Members of what the responsible use of the 
MRA entails.
    The House of Representatives is committed to taking the 
necessary steps to create that transparent system that ensures 
taxpayer dollars used to perform official and representational 
duties are being spent responsibly and within the guidelines of 
our House rules.
    I want to remind this Committee and those who are in 
attendance that the executive and the judicial branches do not 
have the same expense transparency requirements imposed on 
themselves. As we are the people's House, with the 
constitutional authority to control the purse, we hold 
ourselves to the highest standards to ensure we are responsible 
with taxpayer money.
    The Committee resolution we will vote on shortly is the 
result of our comprehensive review and will make the necessary 
changes to fulfill our commitment to a more transparent, 
accountable, and responsible House. Again, I would like to 
thank my colleague Zoe Lofgren for being a great partner 
throughout this process.
    And also, in closing, thank you again, Chairman Miller, 
Ranking Member Brady, for giving me this opportunity to help 
improve this great institution.
    I yield back.
    The Chairman. I thank the gentleman for his comments. I 
would now recognize the gentlelady from California, 
Congresswoman Zoe Lofgren, for her opening statement.
    Ms. Lofgren. Thank you, Madam Chairman.
    And thanks also to Mr. Brady for your efforts in getting 
this review started, and certainly to my colleague, Mr. Davis, 
who has worked very diligently with me to try and come to a 
conclusion. We have reviewed a lot of documents, interviewed 
senior leadership in the CAO's Office, as well as meeting with 
outside sunshine groups who play a valuable role in looking at 
the institution, and they all shared proposals with us. We have 
talked to other Members, House staff about what we could do to 
improve House operations.
    And I think today is a very good start. As we have noticed, 
there is more work to do. And it is my understanding that the 
chairwoman is considering holding additional meetings to 
continue the work of modernizing and reforming the regulations 
for how Members spend tax dollars, and that is really good 
news. And I look forward to working with all of my colleagues 
here on the Committee to make sure that we improve how the 
House does business.
    As Mr. Davis and you have referenced, this is a bipartisan 
effort. Our Democratic leader sometimes says show a little 
love. And what that means is let other versions exist. 
Sometimes you have an idea and another person, but when you 
really sort through it you can come to a conclusion because you 
are really trying to get the same thing done. And that is 
really what this is a product of.
    We have put commonsense conditions on the appropriate use 
of charter aircraft in a way we sorted through the issues so it 
works, we think, in a way without being bureaucratic to Members 
who have very rural districts. We have put limits on how 
Members can use tax dollars to decorate their offices. And as 
the chairwoman has mentioned, we already have a prohibition on 
using MRAs for things that are beyond what the House provides. 
We will find out how that happened in a separate outside review 
for the one flamboyant instance where that did not occur. But 
we have emphasized that that is the rule, and the expectation 
is that we would live with that rule.
    We have changed documentation. And I think most 
importantly, we are going to continue a commitment to 
transparency by putting office statements of disbursement 
online in a searchable and sortable format, which gives the 
data more meaning and the taxpayers additional tools, because 
the more eyes we have on this, the better off we all are.
    Now, I think most Members of Congress, you know, want to 
play by the rules. The last thing you want is a mess in your 
office. So we need to be clear on what the rules are so that 
people can live up to them.
    Even though the resolution we are considering has many good 
changes, I do have one amendment I am going to offer on 
something we couldn't come to an agreement on, and maybe we can 
through the amendment process. But I do think this resolution, 
with the exception of that one amendment, strikes the right 
balance between giving Members the tools they need and the 
taxpayers confidence that the tax money is being spent wisely. 
And I think it was a good process, and I thank the chairwoman 
for yielding to me.
    The Chairman. Thank you very much.
    Are there any other members of the Committee that wish to 
offer an opening statement? Okay.
    I will now call before the Committee our first agenda item, 
Committee Resolution 114. This is a Committee resolution 
amending the Committee's regulations and to instruct the CAO. 
Without objection, the first reading of this resolution is 
dispensed with, and the resolution is considered read and open 
for amendment at any point.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
          
    The Chairman. Now, as I mentioned, this resolution will 
first modify The Member's Congressional Handbook to clarify 
what type of car mileage is qualified for reimbursement. 
Currently, The Member's Congressional Handbook says that travel 
via a privately-owned or privately-leased vehicle while on 
official or representational business is reimbursable at a 
rate-per-mile basis. This resolution will apply a new, very 
specific definition for privately-owned vehicles for the 
purpose of mileage reimbursement. The new definition makes it 
clear that to be considered privately owned and eligible for 
mileage reimbursement, the car must be a depreciable asset that 
is owned by either the Member or the staff using the car or one 
of their immediate family members.
    Now, obviously this would preclude mileage reimbursement 
for a vehicle that might be owned by a campaign. That has never 
been allowed, for taxpayers to reimburse that. But, again, we 
just want to make it clear.
    This resolution will also add a new threshold for charter 
flights. Our current regulations allow for the use of official 
resources for Members and staff to travel aboard chartered 
aircraft, again, only for official business. Today's resolution 
will add new preapproval requirements for chartered flights. 
Going forward, any chartered flight to and from Washington, 
D.C., will require prior approval from this Committee, as will 
any chartered flight over $7,500. This travel to and from D.C. 
is intended to only be used when an emergency arises.
    Regarding charter flights, we need to take into account, as 
has been said here already, that you have many Members of 
Congress who represent extremely expansive districts, maybe an 
entire State, with locations that are simply not serviced by 
commercial airlines, and they need to be able to travel 
throughout their district. So for some of our colleagues, 
flying smaller chartered flights is actually the most effective 
means of transportation.
    But, again, to prevent any misuse of official resources for 
charter flights, this Committee will now need to approve 
flights that meet the criteria that has been mentioned. Flights 
originating from Washington versus a Member's congressional 
district and, again, flights that cost over $7,500.
    Also, this resolution will add a new threshold for office 
furniture and decorating purchases that will now require prior 
approval from this Committee before certain purchases can be 
made. Going forward, again, any furniture item or decorating 
item that exceeds $5,000 must receive approval by this 
Committee.
    Again, I want to note, as has been mentioned, I keep 
reiterating it here, our current regulations prohibit the use 
of official resources to furnish your Washington, D.C., 
offices. And in addition to improving our regulations by adding 
clarity and greater review, one goal of this resolution is to 
improve transparency of House expenditures, and that will be 
accomplished in two very meaningful ways.
    First, it calls on the CAO to develop a plan to include a 
more detailed breakdown of travel expenses. Currently, all 
travel-related expenses reported in the statements of 
disbursement are now bundled into one line item, which means 
that you really don't know how much was spent on flights or 
mileage reimbursement or lodging or what have you. And going 
forward, these line items will be broken down.
    Secondly, the CAO will be required to present the Committee 
with a plan to publish the statements of disbursement 
electronically, again, as has been mentioned, in a searchable, 
sortable format, unlike what is currently the less user 
friendly format that we have online today.
    Finally, this resolution directs the CAO to review and 
explain how its Office of Finance complies with our 
documentation standards. This review we think is very, very 
important, because with each purchase that an office makes, 
depending on the type of purchase and the amount of the 
purchase, certain documentation is required for justification. 
We just need to make sure that those documents are being 
collected and reviewed in the finance department.
    I certainly think, and I think we all pretty much agree, 
these are very commonsense revisions that will help provide 
more clarity to the current regulations and establish what we 
think is appropriate preapproval requirements. Certainly, the 
new transparency directives included in this resolution, as 
well as the additional review of the CAO's financial processes, 
are very important steps forward towards improving public 
access and insight on how official resources are spent. Of 
course that ultimately improves accountability.
    Once again, I just want to thank our review team for their 
recommendations. I look forward to seeing the plans put forth 
by the CAO. I would recognize Mr. Brady if he has any statement 
on the resolution.
    Mr. Brady. No.
    The Chairman. All right.
    Would any member like to offer an amendment to this 
resolution?
    Ms. Lofgren. Madam Chair?
    The Chairman. The gentlelady from California is recognized.
    Ms. Lofgren. I have an amendment, amendment number two.
    The Chairman. Without objection, the amendment will be 
considered as read.
    [The information follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. The gentlelady is recognized for 5 minutes to 
speak in favor of her amendment.
    Ms. Lofgren. Thank you, Madam Chair.
    As you have outlined the resolution, I think there is much 
merit in what we have before us. I think we will have more 
transparency and more accountability. So that is a good thing.
    The one thing that we did not come to agreement on is 
greater detail on the voucher documentation standards for 
mileage. Now, right now you really can't find out very much 
about where someone is going or on what day. And I am mindful 
that we have received a letter to you from the Sergeant at Arms 
expressing concern about details in the statement of 
disbursements about Members' travel itinerary, providing a clue 
to where a Member may be at a given time. And quoting from the 
letter, it says, ``While the statement of disbursements lists 
past travel, one could conceivably review the material to 
determine a pattern. Once a pattern is identified, an 
individual could more accurately pinpoint a routine or a 
frequently traveled route, thus enhancing a Member's 
vulnerability to unwanted encounters.''
    I appreciate that the Sergeant at Arms' job is to keep us 
safe, but I did something last night just to see whether it was 
doable. I went on the Internet, and in about 10 minutes I could 
find the home address of members of this Committee. So we are 
fooling ourselves if we think that putting the taxpayers' money 
being used for a route is somehow keeping us safe when in about 
10 minutes somebody can find out where we live. And as we all 
know, we have no security in our home. So I just think the 
Sergeant at Arms, while doing his job, is overreacting, to the 
detriment of sunshine.
    I have three amendments, and the first amendment would 
specifically provide for point-to-point disclosure. I am not 
going to offer that in view of the Sergeant at Arms' letter. 
But amendment number two, which I am offering, would provide 
for the name of the travel, the dates of the traveler period 
during which the travel occurred, not to exceed a month, the 
locations of travel expressed in general terms. For example, 
your district office, which everyone knows is on the Internet, 
to a ZIP Code so that people would have an idea of where you 
are going--it would be a general idea, but at least there would 
be some sunshine on it--and the number of miles traveled in 
each journey and the mileage rate.
    I think this would increase the transparency of this, and I 
think it is meritorious. I understand we just couldn't come to 
agreement in the course of our otherwise very collegial effort. 
But I do think this is meritorious. I think it deals with the 
issue--that I disagree with--raised by the Sergeant at Arms.
    And so I offer the amendment and recommend that we do one 
further step on transparency in the matter I have suggested. 
And I would also ask unanimous consent to put amendment one and 
three, that I am not offering, into the record of the 
proceedings.
    The Chairman. Without objection.
    [The information follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
      
    The Chairman. I would also, if I could respond to the 
gentlelady, I would also ask UC to enter into the record this 
letter that you did reference from Paul Irving, who is our 
Sergeant at Arms. Without objection, so ordered.
    [The information follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. He does specify here about security concerns 
that he has, and I am in opposition to the gentlelady's 
amendment. Again, I am very appreciative of all the work that 
you have done on this, and I think we have just taken such a 
huge step forward.
    You know, one of the other hats I wear, I am the vice chair 
of the Homeland Security Committee, and perhaps I sat in too 
many classified briefings. I know there is not a lot of 
sympathy for Members of Congress, but there is a security risk. 
I think when you have a letter from the Sergeant at Arms 
pointing something like this out, we should take this 
gentleman's comments to heart.
    I think that there will be much greater transparency, or 
certainly accountability--let me say that, accountability in 
the finance department with the voucher system, et cetera. I 
just feel that this is a step that is not necessary. But again, 
I am appreciative of the gentlelady offering the amendment. I 
will be opposing this particular amendment.
    Are there any other members that wish to comment on the 
amendment?
    Mr. Nugent. Madam Chair, if I may?
    The Chairman. Yes, the gentleman from Florida, former 
sheriff.
    Mr. Nugent. I appreciate that.
    I truly want to express my gratitude to Ms. Lofgren and to 
Rodney Davis for working so diligently on putting this 
together. Long overdue. I think we would all agree that there 
is probably other things that we should do as we move forward, 
whether it is leased vehicles and some of the excesses that we 
have seen in the past, but that is not what we are talking 
about today.
    I will tell you, coming from the State of Florida that 
probably has the most open, transparent records system in the 
United States, but even they saw the need to safeguard law 
enforcement by not putting their addresses on public documents. 
It causes you a problem when you go to refinance a home because 
when they go to a public document search they can't find you.
    But that is a safety concern. And I think the State of 
Florida, like I said, it has the most open, transparent records 
system in America, has decided, you know, we need to protect 
those folks. I think that is part of the problem that we see 
today across this country in regards to, you know, folks that 
are just upset with government per se.
    And I worry, and I agree with the Sergeant at Arms that 
when you do this and put it on the Net, that it does create an 
additional concern for those of us who are serving. And, you 
know, if questioned, obviously we put the detail in to our 
folks and then they transcribe it and put it in for the 
disbursement for the statement of disbursements. So that backup 
information is there in case there ever is a question, whether 
it comes to Ethics or something else.
    I would suggest that all Members keep that information, and 
I would think most do, because none of us want to have an 
ethics complaint against us or the FBI coming in and seizing 
your records. None of that we want to see happen.
    But I do think that where we are today, with the hatred 
that is out there, particularly towards government and 
government officials, we need to be very, very careful. And I 
would suggest that we do follow the recommendation of the 
Sergeant at Arms. While he is responsible for our safety, and 
Ms. Lofgren stated it, that they don't provide security at your 
home.
    And so your travel methods--you know, we tell law 
enforcement change your travel methods, don't take the same 
route to work every day. Do things that if someone wants to 
hurt you, it makes it more difficult for them to do that. And I 
would suggest the same thing holds for Members of Congress.
    Ms. Lofgren. Would the gentleman yield?
    Mr. Nugent. I would be glad to yield.
    Ms. Lofgren. I appreciate that. And I think none of us 
wants Members of Congress to be unsafe. I mean, and you are 
right, there are people who are unhinged. We certainly remember 
our colleague Gabby Giffords, who was shot in the head. Of 
course that was at a publicized meeting, which all of us go and 
do.
    I just put it on the radar screen here. I fly home every 
week, just like everybody else. And you can go on United 
Airlines 2 days in advance and you can see my name. It is on 
the seat I am in, and anybody can see it. So if we think that 
we are anonymous in terms of our travel, we are not. And I 
think that it would be very helpful to have it posted for the 
public. I realize we have a disagreement here. But I just point 
out this information is in some cases already available.
    Mr. Nugent. Well, I would suggest, though, reclaiming my 
time----
    Ms. Lofgren. I yield back.
    Mr. Nugent [continuing]. Is that we should err on the side 
of caution. If anything, from what we have seen, violence in 
America today, we really ought to be err on the side of 
caution. While I understand the transparency issue, I think 
that in our office records it clearly is there if anyone wanted 
to see it or check.
    And I think by things that you are doing in regards to 
separating air reimbursement for flights, for mileage, I think 
that then opens up that transparency that we are looking at, 
because when you see a Member that has this huge number and you 
can pull up other Members and see everybody else is relatively 
in this category and you have got one guy or gal way up here, 
that in and of itself might draw some scrutiny I would think. 
And I think by putting it online it certainly opens that up to 
scrutiny.
    So, Madam Chair, once again, I really do appreciate all the 
work that Ms. Lofgren and the gentleman from Illinois, Mr. 
Davis, have done as it relates to opening this process up for 
transparency. And with that, I yield back, and I oppose that 
amendment.
    The Chairman. Thank the gentleman.
    Any other members?
    Mr. Davis. Yes, Madam Chairman.
    The Chairman. Mr. Davis.
    Mr. Davis. Again, the changes that we have made towards 
openness, transparency have been phenomenal. And to have only 
one area of disagreement I think is a testament to how well 
this Committee worked together in a bipartisan fashion.
    Now, I too oppose this amendment. Obviously, we wouldn't 
have had this disagreement if I didn't. And I appreciate the 
comments that Mr. Nugent made as a former law enforcement 
official. I think his comments need to be taken into serious 
consideration, as the letter from the Sergeant at Arms, Mr. 
Irving. But let me address a few other issues that I think are 
pertinent to this debate.
    I appreciate the fact that people know where we live. I 
would argue, because of my security system at home, because of 
other methods that I can protect myself and my family with, I 
am much safer at home than I am traveling throughout my 
district doing my representational duties. So somebody having 
my home address, I feel a little bit safer there than I do out 
on the road at different public events.
    And our public schedule many times is released. So, Ms. 
Lofgren, you are right, many individuals can have access to 
where we are going. Frankly, I had an experience where I had a 
group of individuals come talk to me about a very important 
issue to them at a public meeting, and while I was on my way to 
another publicly disclosed meeting they decided to visit my 
home and deliver that same message to my then 12-year-old son. 
These are issues that we face as Members of Congress, and it is 
bullying tactics likes that that I think are becoming more 
prevalent in today's day and age.
    Now. If security issues don't really concern you as a 
Member of Congress, if those issues don't concern you, what is 
great is the processes we have in place right now, you can 
already by your expense reimbursements, by each voucher request 
that you submit, you can individualize every single trip. You 
can put the detail on there, you can individualize it, make an 
individual expense reimbursement for every single mileage trip 
that you want to put in there.
    So those Members who want to do that can do it. And I will 
give you an example. When the travel subsistence category came 
into effect a few years ago, while I was a financial 
administrator for a Member, I chose not to use that category. 
So the statement of disbursements for the Member that I worked 
for still was broken down into the categories that we are going 
to get to by the time the next legislative year starts. That 
will add, along with the transparency, sortable, transparent 
documents that are going to be posted online, will give more 
transparency to what we do in our Member offices.
    So the security issue is real. If somebody isn't concerned 
about that, you can disclose whatever you want on each 
individual document submission now. I would urge those Members 
who feel that that is important to do so. And in the end, I 
will vote no on this amendment, but, again, it isn't through a 
lack of appreciation for what we were able to accomplish 
overall.
    And thanks again. I yield back.
    The Chairman. Any other members wish to be recognized to 
speak on the amendment?
    Mrs. Comstock.
    Mrs. Comstock. Thank you.
    Madam Chairman, I too appreciate all the hard work that the 
Committee has done. And I just wanted to recommend, as the 
Committee is looking through how we can do the sorting and have 
the transparency that we want and really provide the picture in 
a better way, Virginia has a system that is called the 
Virginia--it is vpap.org, is the Web site. It is Access 
Project. And what it does is it takes all the submissions that 
we have--this is on the political side, but it would be easily 
applicable for our MRA--when we submit those documents they are 
almost immediately able to put them up. And they have a much 
better sorting system than I have seen on any of the Federal 
databases that look at our campaign disbursements.
    And this is done privately by just a couple of guys. They 
are privately supported. They are a great resource. And so I 
would just recommend that the Committee take a look at it. It 
is vpap.org, v-p-a-p.org. And that Web site is a great model 
for transparency. Because I know when I put my records in, I 
actually can see how everything is sorted and how it is spent 
better than we can do almost ourselves internally. They do it 
that well.
    Thank you.
    The Chairman. Very well. Thank you for those comments.
    Any other members wish to speak to this amendment? If there 
are no more comments, we will vote on the gentlelady's 
amendment. The question is on the amendment offered by the 
gentlelady to the resolution.
    All those in favor of the amendment, signify by saying aye.
    All opposed, signify by saying nay.
    In the opinion of the chair, the nays have it and the 
amendment is not agreed to.
    Ms. Lofgren. Could I have a recorded vote, Madam Chair?
    The Chairman. There is a recorded vote requested. And the 
clerk will call the roll.
    The Clerk. Mr. Harper?
    Mr. Harper. Nay.
    The Clerk. Mr. Harper votes nay.
    Mr. Nugent?
    Mr. Nugent. No.
    The Clerk. Mr. Nugent votes no.
    Mr. Davis?
    Mr. Davis. No.
    The Clerk. Mr. Davis votes no.
    Mrs. Comstock?
    Mrs. Comstock. No.
    The Clerk. Mrs. Comstock votes no.
    Mr. Walker?
    Mr. Walker. No.
    The Clerk. Mr. Walker votes no.
    Mr. Brady?
    Mr. Brady. Yes.
    The Clerk. Mr. Brady votes yes.
    Ms. Lofgren?
    Ms. Lofgren. Yes.
    The Clerk. Ms. Lofgren votes yes.
    Mr. Vargas?
    Mr. Vargas. Aye.
    The Clerk. Mr. Vargas votes aye.
    Chairman Miller?
    The Chairman. No.
    The Clerk. Chairman Miller votes no.
    The Chairman. In the opinion of the chair, the nays have 
it. The amendment is not agreed to.
    Are there any other amendments? If not, I would move that 
the Committee adopt the Committee resolution. The question is 
on the motion to adopt the resolution.
    All those in favor, signify by saying aye.
    All those opposed, say nay.
    In the opinion of the chair, the ayes have it, the ayes 
have it, and the motion is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table.
    I would ask, first of all, unanimous consent that a joint 
explanation statement of today's resolution as it relates to 
the changes to the Member's handbook be entered into the 
record. Without objection, so ordered.
    [The information follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. For all the matters that the Committee has 
considered today, I would also ask UC that the staff be 
authorized to make any technical and conforming changes if 
necessary. Without objection, so ordered.
    As we conclude today's markup, I just want to say again I 
know there was a lot of comment about sometimes things 
happening in Congress and Congress doesn't take the correct 
action. But I think what you saw today is really a very good 
government, a very good government. This is important, I think, 
that the people of America see that the Congress is reacting to 
things that happen, that we are very, very desirous of having 
full transparency of how we utilize taxpayers' finances.
    Again, in a time of sometimes people say that, you know, 
the two parties can't work together, I think what has just 
happened here today shows that actually the two parties can 
work together in a very, very good way. As we always call this 
the people's House, I think the people were very well served 
today by this resolution. And again, this won't be the end of 
it. This Committee always is taking a look at what we are 
doing. Always the largest room is the room for improvement.
    Mr. Davis. Will the gentlelady yield very quickly?
    The Chairman. Absolutely I will yield.
    Mr. Davis. In the midst of all of this, trying to make sure 
we got these changes through, I forgot to thank, and I think 
most of us forgot to thank the hard work that our staffs on 
both sides of the aisle did in helping to make this a reality 
today. So I would like to submit a congratulations to each of 
them for all the hard work that they put in. And my apologies 
for unfortunately waiting until the end of the hearing.
    Ms. Lofgren. I would like to join in that thanks for both 
staffs.
    The Chairman. I would join in that as well. I know that on 
our side and on the other side the staffs did put a tremendous 
amount of hours into this work product. So it has been a truly, 
as I say, bipartisan, team effort. Something I think we can all 
take a lot of pride in, most importantly, the people that we 
serve.
    With that, this concludes today's markup. Without 
objection, this meeting is adjourned.
    [Whereupon, at 10:57 a.m., the Committee was adjourned.]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
